No.

fi-tZ

-ourt, U.s.
i It'D

k/R 1 s 2019
In The

2£2ceoftheclerk

Supreme Court of the United States

VERONICA W. OGUNSULA,
Petitioner
vs.
STAFFING NOW, INC.,
Respondent

On Petition for Writ of Certiorari to the United
States Court of Appeals for the
District of Columbia
Petition For Writ Of Certiorari

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20792
240-486-1427
Nona.Ogunsula@gmail.com
Petitioner

RECEIVED
JUL 1 2 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Ogunsula vs Staffing Now--Petition For Writ of Certiorari_Rule 14 Booklet--Submit7-092019BookFinalV3

1

QUESTIONS PRESENTED
1. How does the framework and prima facie prongs
of the Supreme Court’s precedent setting
employment case, McDonnell Douglas vs. Green,
apply in a Title VII and ADEA case where
applicants or employees of temporary
employment agencies or staffing firm employers
do not apply for a “specific job or position”, but
seek work assignments or types of positions at
any of the employers’ third party clients? Does
the employee’s prima facie case fail if they
cannot prove that they applied for a single
position but rather they sought work
assignments at the temporary employment
agency? What did the Supreme Court intend?
2. Does the wording of Federal Rules of Civil
Procedure (FRCP) 26, 33 and 34 regarding
Discovery timeframes and the response period
unjustly provide an advantage to practicing
lawyers and members of the bar while
disadvantaging pro se litigants?
3. Should a Motion For Judicial Recusal
accompany a hearing or a request for additional
information on the merits when a pro se litigant
submits such a Motion?

11

LIST OF PARTIES
The Petitioner in this case is Veronica W.
Ogunsula, a citizen of the United States and a
resident of Maryland.
The Respondent is Staffing Now, Inc., (SNI), an
employment agency/staffing firm that provides
temporary and permanent placement services of
employees. Per their website, they specialize in
“clerical and administrative staffing solutions in all
industries on a full-time and temporary basis”.
SNI was acquired in 2017 by GEE Group, Inc.
(JOB), a publically traded company.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED......................

1

LIST OF PARTIES......................................

n

TABLE OF AUTHORITIES.......................

v

CASES
STATUTUES........................

vi

RULES...................................

Vll

OPINIONS BELOW....................................

Vlll

JURISDICTION..........................................

IX

INTRODUCTION........................................

1

STATEMENT OF THE CASE...................

6

A.

Factual Background

B.

The Proceedings Below

12

REASONS FOR GRANTING THE WRIT,

18

I.

6

McDonnell Douglas prongs and
framework should be reconsidered
18
A. Application For A Position/Work
Assignment................................... 21
B. The Practices Related to
Recruiting Candidates Have
Changed........................................ 25

II.

A UNITED STATES COURT OF
APPEALS has so far departed from
the accepted and usual course of

IV

judicial proceedings, or sanctioned
such a departure by a lower court,
as to call for an exercise of this
Court’s supervisory power........... 30
III.

Request Change/Update to Federal
Rules of Civil Procedure Rule 26, 33
and 34.................................................. 33

IV.

Judicial Recusal................................. 35

CONCLUSION

40

APPENDICES.

41

V

TABLE OF AUTHORITIES
Cases
Cuddy v. Carmen, 694 F.2d 853, 856-57 (D.C. Cir.
1982
21
Derell Pruitt et al. Plaintiffs, v. Personnel Staffing
Group, LLC d/b/a MVP, et al., Defendants. Case
No. 16 C 5079, Docket #85 Memorandum of
Opinion, November 30, 2016
23
H. Kessler and Co. v. EEOC, 5 Cir., 1973, 472 F.2d
1147 [1972]
26
Hazelwood School District v. U.S., 433 U.S. 299,
308, 1977.................................................................... 31
Hickman v. Taylor, 1947, 29 U.S. 495, 507

30

Hussain v. Nicholson, 435 F.3d 359, 363, D.C. Cir.
2006
31
Kirtsaeng vs John Wiley E. Sons, Inc., 136 S.Ct
1979, 2016, quoting United States vs. Burr, 25
F.Cas. 30, 35............................................................. 33
Liljeberg vs. Health Services Acquisition Corp., 486
U.S. 847, 1988
39
Magnuson v. Peak Technical Services, Inc., 808 F.
Supp. 500, 508 (E.D. Va. 1992................................ 24

VI

Nationwide Mutual Insurance Co. v. Darden, 503
U.S. 318, 324 (1992).............................................. 19
NLRB v. United Ins. Co. of America, 390 U.S. 254,
258, 1968
19
Planells v. Howard University et al., WL 30372,
U.S. District Court, District of Columbia,1983...31
Rich v. Martin Marietta Corp., 522 F.2d 333, 343,
10th Cir. 1975......................................................... 31

Sanchez v. Standard Brands, Inc., 5 Cir. 1970, 431
F.2d 455, 461
32
Texas Department of Community Affairs vs.
Burdine, 450 U.S. S.Ct 248, 1981...............

30

US vs Kelly, 888 F2.d 732, U.S. Court of Appeals,
11th Circuit, 1989.................................................... 39
Wallin v. Fuller and Nationwide Mutual Insurance
Co., 5 Cir. 1973, 476 F.2d 1204 [1973
31

STATUTUES

42 U.S.C. 2000e-5
29 U.S.C. § 621
28 U.S. Code §455 (a)

Vll

RULES
Federal Rules of Civil Procedure
Rule 26 Duty to Disclose
Rule 33 Interrogatories to Parties
Rule 34 Producing Documents,
Electronically Stored Information
and Tangible Things
Rule 37 Failure to Make Disclosures or
to Cooperate in Discovery; Sanctions

Vlll

OPINIONS BELOW
The U.S. Court of Appeals for the District of
Columbia Circuit decision denying Ms.
Ogunsula’s, Petitioner, appeal of the
Respondent’s Motion for Summary Judgment
and two Motions To Compel Discovery are
reprinted in the Appendix (App.) at Page 43.
The Appeals Court denying a Motion for
Rehearing and a Motion for Judicial Recusal
are reprinted at Page 58. A Motion for
Rehearing En Banc was denied and is reprinted
at Page 60. The U.S. District Court for the
District of Columbia’s Order granting Summary
Judgment to the Respondent and denying the
Petitioner Motion 56D is reprinted at Page 46.

IX

JURISDICTION
The U.S. District Court for the District of Columbia
issued its opinion on September 21, 2017. A Motion
to Compel Discovery was denied by the District
Court on May 11, 2017.
The District of Columbia Circuit denied an appeal
on August 10, 2018. A Petition for Rehearing and
Rehearing En Banc was denied on December 3,
2018. A Motion for Judicial Recusal was also denied
on December 3, 2018.
The Supreme Court of the United States has
jurisdiction under 18 U.S.C. § 1254 (1) to review
this Petition. On February 26, 2019, Chief Justice
John G. Roberts granted an application for an
extension until April 18, 2019. On April 22, 2019,
Chief Justice Roberts granted a second application
for an extension until May 2, 2019.

1
INTRODUCTION
When McDonnell Douglas vs Green, the precedent
for Title VII cases, was decided by the Supreme
Court in 1973, the workforce was significantly
different than it is today. Then, roughly, 88 million
or 61% of the total 146 million individuals who were
living in America, age 16 and over, comprised the
civilian workforce.1 Women were 39% of the
workforce and men were 61%.2 Nine million or 10%
of the workforce was African Americans and 3.7
million or 4% were Hispanics.3 It’s safe to say that
the largest percentage of the workforce was white
and male, and more than 40% of all men were
married.
In 1973, the overall unemployment rate was
5.2%. The unemployment rate for whites was
4.3% while the unemployment rate for African
Americans was 9.4%, a rate that was more
than double that of whites and nearly twice
the overall unemployment rate. The Hispanic
unemployment rate was 7.9%. It should be
noted here that while the unemployment rate
today in March 2019 is 3.9%, the lowest it’s
ever been, the 6.7% rate for unemployed
African Americans is still almost double that
of the white rate of 3.5%. Unfortunately, this

'Labor Force Statistics from the Current Population Survey,
Civilian noninstitutional population, March 1973, U.S.
Department of Labor, bls.gov.
2Ibid.
3Ibid.

2
trend has pretty much remained constant for
the last 50 years.
Many scholars attribute the disparity to a
combination of factors including hiring
discrimination. In fact, a study published in the
Proceedings of the National Academy of Sciences in
2017 concluded that hiring discrimination against
African Americans has remained consistent and not
substantially declined in 25 years.4 The study
compared resumes of equally qualified applicants
only varying the names of the individuals to reflect
cultural/ethnic sounding names. Hispanics whose
unemployment rate at 4.9% is better than African
Americans also faced more hiring discrimination
than their white counterparts.
Over the years since the passage of the Civil Rights
Act of 1964, technology and globalization have
impacted both the type of labor that is needed by
employers and skills needed by employees. These
factors have also increased productivity for America
businesses. Social customs and economic conditions
have changed the composition and demographics of
the workforce. Women now represent 47% of the
162.8 million individuals in the workforce. Single
and married women make up 15% and 23% of the
workforce, respectively. White men are now 29% of
the workforce. Minorities are a larger percentage of
4Lincoln Quillan, Devah Pager, Arnfinn H. Midtboen, and Ole
Hexel, “Hiring Discrimination Against Black Americans
Hasn’t Declined in 25 Years, Harvard Business Review,
10/11/17, http://hbr.org/2017/10/hiring-discrimination-againstblack-americans-hasnt-decline-in-25-vears

3
the working population than in 1973. African
Americans are 12% of the workforce while
Hispanics are 18% and Asians are 6% of the total
workforce.5 Women are working because they are
heads of households and they have career
aspirations just like their male counterparts.
Additional laws have been required to protect equal
employment opportunities, fair pay, and the right to
a discrimination free work environment. Hence the
enactment of the following laws:
• Age Discrimination and Employment Act
(1967)
• The Pregnancy Discrimination Act (1978)
• Americans With Disabilities Act (1990)
• The Civil Rights Act of 1991
• Lilly Ledbetter Fair Pay Act (2009)
Temporary or contingent staffing firms, which was
essentially started in the late 1940’s by William
“Russ” Kelly, the founder of Kelly Girls, only
employed less than 200,000 individuals in the early
1970s. These workers of mostly white women were
an infinitesimal slice of the workforce. Then
temporary workers performed clerical jobs and were
viewed as cheap labor. The characteristics of this
temporary workforce made it susceptible to a
number of abuses ranging from fee-splitting
between the agency and the employer when
temporary applicants were required to pay a fee to
apply for work at an agency, to “flipping” of

5Current Population Survey, Labor Force Statistics, March
2019, bls.gov

4
permanent employees from the employer to the
temporary agency.
Today, approximately 3.1 million6 of the 162.8
million7 individuals employed in the U.S. are
temporary workers. About ten percent of the entire
workforce may be employed as a “temporary” at
some point during the year.8 Noting the explosive
growth in the contingent workforce in 1997, which
had double between 1990 and 1997, the Equal
Employment Opportunity Commission (EEOC)
issued guidelines “to provide clear and
comprehensive guidance on the coverage of equal
employment opportunity laws with respect to these
workers.”9
A disproportionate number of women and
minorities who comprised this segment of the
workforce were more at risk for discrimination and
abuse. The EEOC made it clear that “contingent
workers were covered under the anti-discrimination
statutes because they typically qualify as

Employment, Hours, and Earnings from the Current
Employment Statistics survey (National), Temporary help
services, NAICS Code: 56132, February, 2019, http://bls.gov
7Labor Force Statistics from the Current Population Survey,
Civilian noninstitutional population, March 2019, U.S.
Department of Labor, bls.gov.
8Staffing Industry Statistics, American Staffing Association,
https://americanstaffing.net/staffing-research-data/factsheets-analvsis-staffing-industrv-trends/staffing-industrvstatistics/
EEOC Issues Guidance On Application of EE Laws to
Contingent Workers, News Release, 12/8/1997, West Law
766184

5
“employees” of the staffing firm, the client to whom
they are assigned, or both.”10 The government
agency went further stating that temporary
employment agencies and their clients were
prohibited from discriminating against workers on
the basis of race, color, religion, sex, national origin,
age, or disability, and that a staffing/temporary
agency employer must take immediate and
appropriate corrective action if it is made aware
that its client has discriminated against one of the
temporary employees it placed with the client.

10Ibid.

6
STATEMENT OF THE CASE
A. Factual Background
In the summer of 2014, Ms. Veronica Ogunsula, the
Petitioner, was one of the 9.6 million Americans,
age 16 and over, who was actively seeking
employment. Most recently she had worked as a
Program Manager for a local county government
and as an executive director of a non-profit she
founded to develop and promote community health
programs for women in the Washington, D.C.
metropolitan area. Having been severely affected by
the recession, she shuttered the non-profit health
promotion programs in 2013 for budgetary reasons.
She then decided to seek full time employment. She
had over 20 years of experience in marketing to the
federal government and had worked for AT&T as a
sales and marketing professional and program
manager. She also had excellent administrative
skills and had tested very high (80’s to high 90’s) on
the Microsoft office automation software tests. This
led her to also seek temporary work assignments,
focusing on administrative jobs, in order to
immediately begin earning an income and pay her
mortgage, and other household and living expenses.
The Petitioner has a Bachelor of Business
Administration degree from Howard University in
Washington, DC and a Master’s degree in Business
Administration from the University of Pittsburgh in
Pittsburgh, PA.

7
Ms. Ogunsula first contacted the Respondent,
Staffing Now, Inc., in the July/August timeframe of
2014. She approached Staffing Now, Inc. because
they specialized in “clerical and administrative
staffing solutions in all industries on a full-time and
temporary basis”11. As stated earlier, she
specifically wanted to work temporary assignments
so that she could continue to look for full-time
employment.
She spoke by phone with Chris Van Landingham, a
manager at Staffing Now, Inc. They exchanged first
names. She told him that she was inquiring about
temporary administrative assignments with their
agency. During their conversation, she told him of
her past experience working with temporary
staffing agencies in college and her outstanding
administrative and social media skills. She also
communicated that she had extensive experience
with the Microsoft Office suite of products (i.e.,
Word, Excel, Outlook, PowerPoint, and Project,
etc.). Mr. Van Landingham, a white male, seemed
impressed and enthusiastic about her skills and
asked that she send him a resume via email. She
followed up and sent a resume to the Respondent.
The initial email was rejected because the email
address the Petitioner used for Mr. Van
Landingham was incorrect. She corrected the
address and resent the email. This time it was not
rejected.

1 Jhttp ://staffingnow.com

8
The Petitioner called the Respondent once or twice
per week over the next three to four weeks, but she
did not receive a response. The receptionist offered
to refer her to another recruiter, Niya Leek and also
provided her with Ms. Leek’s email address so that
she could send her resume to her. The Petitioner
followed up and sent a resume to Ms. Leek and left
a voice mail message for her. She then followed up
with two calls to Ms. Leek, but the Petitioner never
received a response from Ms. Leek.
During the first or second week of September 2014,
Petitioner called Staffing Now again to follow up on
her resume and staffing opportunities with the
company. This time she was referred to Ms.
Ekundayo. She spoke with Ms. Ekundayo by phone
and sent her a resume in the pdf format by email.
Ms. Ekundayo asked her to come in the office on
September 15, 2014 for an interview. She also
asked her to complete several Microsoft Office
automation tests. The Petitioner completed the
tests and was told that she passed all tests. During
her interview with Ms. Ekundayo, they discussed
the Petitioner’s experience with temporary agencies
in college, the agencies she had worked for and
administrative positions she was hired to work. Ms.
Ekundayo asked the Petitioner the name of some of
the agencies she had worked for and she responded
that they probably were not around anymore
because she had not worked for these type of firms
since the mid-1980’s when she was in college. It was
at this point that the Respondent made a comment
about the Petitioner’s age. She stated that the
Petitioner looked younger than that.

9

Ms. Ekundayo next asked the Petitioner the type of
positions she was interested in. The Petitioner
stated that she was interested in administrative
assignments. At the close of the interview, Ms.
Ekundayo said she would start sending the
Petitioner out for assignments. Ms. Ekundayo then
requested the Petitioner to provide her with a hard
copy of her resume as well as several references.
When asked for the name of a supervisor, the
Petitioner told Ms. Ekundayo that she had not been
in a supervisor/employee relationship for several
years but would provide her with the name of a
former supervisor from AT&T. Ms. Ekundayo asked
the Petitioner to re-submit her resume in the MS
Word format as opposed to the .pdf format she had
sent in the previous email to Ms. Ekundayo. The
Respondent ended the interview by stating that
they would be calling her for assignments and she
asked the Petitioner to fill out several employment
forms including the 1-9 form and payroll documents
before she left. The Petitioner was also asked
whether she would like her check deposited directly
to her bank account or on a payroll card. The
Petitioner responded by asking if she had to make
the decision that day and she was told no.
The Petitioner followed up on her interview with
Ms. Ekundayo with an email that provided her an
MS Word version of her resume as had been
requested. She also left a message with the
updated phone number for one of her references.
The Petitioner was under the impression that she
was completing the on-boarding process and that

10
she would start receiving calls for assignments.
After a few days, she called Ms. Ekundayo and left
her a message to ensure that she had received the
information that she emailed. In fact, the Petitioner
made several calls to follow up after the interview
and to communicate that she was available for
assignments. After not receiving a response from
the Ms. Ekundayo, the Petitioner called Ms.
Ekundayo again and was told that she was not
available. A few weeks later, the Petitioner called
and left a messages for Mr. Van Landingham but
never received a call back or any calls regarding
assignments.
After not receiving any response from the
Respondent after a few months of calling them,
Petitioner visited the EEOC office in Washington,
D.C. in December 2014, several days before the
Christmas holiday. She was asked by EEOC staff if
the reason for her visit was to fill out a complaint.
The Petitioner was troubled by the comments the
Respondent had made regarding her age and their
lack of response early on after she had initially
submitted her resume to them and her identity and
age had been revealed to the Respondent. Not fully
aware of what she should do, The Petitioner stated
that she first wanted to speak with someone about
her experience with the Respondent. Before she
filled out the complaint, she spoke with an
investigator about her experiences with Staffing
Now, Inc. She recounted her interaction with the
Respondent’s employees as described above, the
calls, emails, interview and follow-up calls to the
temporary staffing agency. She was then asked

11
again whether she wanted to fill out a complaint,
the Petitioner stated yes. The Petitioner completed
the complaint and returned it to the staff person at
the front desk.
During the Christmas holiday in 2014 and after the
New Year in January 2015, the Petitioner placed
several calls and left messages for the EEOC
investigator she had originally spoke with about
her interaction with Staffing Now, Inc. She wanted
to inquire about how the investigation was going.
After not receiving a call back from the investigator,
the Petitioner visited the EEOC Field Office in
Washington, DC on January 23, 2015 to inquire
about the investigation. At that time she was told
that an EEOC Charge Document had been issued
and mailed to her address. She had not received the
document in the mail; she was given a copy of the
Charge and Right To Sue documents at that time
by the EEOC staff person.
The Respondent stated in their Motion To Dismiss
that they received from the EEOC a copy of the
Petitioner/Plaintiffs EEOC-issued “Dismissal and
Notice of Rights” document within a few days after
the EEOC’s issue date of December 15, 2014.
(Appendix—DCD Court Docket No. 8-1, page 7,
para2) Ms. Ogunsula did not receive this
document.
Around February 2015, Petitioner started attending
the free “Advice and Referral” legal clinic sponsored
by the D.C. Bar on the second Saturday of the
month at Bread For The City in Washington, D.C.

12
to receive assistance and representation to file an
employment complaint in federal court. She was not
working and could not afford to pay for an attorney.
Throughout the initial phases of the lawsuit, she
attended a few other free legal clinics in
Washington, D.C., but she received the most
assistance from the D.C. Bar Pro Bono clinic at
Bread For The City. Also, the Petitioner heavily
relied on Law Library resources at area Law
Schools including American University, Catholic
University and Howard University; she also utilized
the Library of Congress’ Law Library.
In April 2015, the Petitioner filed a civil complaint
in the U.S. District Court for the District of
Columbia for employment discrimination claims
against Staffing Now, Inc. under Title VII of the
1964 Civil Rights Act and Age Discrimination in
Employment Act of 1967. The Complaint alleged
discrimination based on race, national origin, and
age by the Respondent, Staffing Now, Inc.
B. The Proceedings Below
The civil complaint was served on the Respondent
by the Court on June 30, 2015. On July 30, 2015,
the Respondent/Defendant submitted a Motion To
Dismiss. The Court issued a Fox Neal order on
August 2, 2015 advising the Petitioner/Plaintiff to
respond by August 19, 2015. The Petitioner
submitted her response to the Court on August 18,
2015. On August 20, 2015, the Petitioner/Plaintiff
submitted an amended complaint to the Court to
correct typographical errors and other small errors
in the original complaint. The Court denied with

13
prejudice the Respondent/Defendant’s Motion To
Dismiss and deemed the Petitioner/Plaintiffs
Amended Complaint as filed on October 7, 2015.
On November 17, 2015 a scheduling conference was
held before District Court Judge Tanya Chutkhan
where the parties consented and were referred by
the Court to mediation before Magistrate Judge
Alan Kay. Following the initial Hearing, the
Respondent/Defendant sent their initial
Interrogatories to the Petitioner/Plaintiff on
November 20, 2015.
The parties’ first Mediation/Settlement Conference
was held on December 14, 2015. The Magistrate
Judge offered the Petitioner Pro Bono Counsel to
assist with negotiations during the mediation
period only and the Petitioner accepted. Counsel
was assigned and entered an appearance on March
26, 2016.
On January 7, 2016, the Petitioner filed a
Production of Documents/Subpoena request to two
parties, The Library of Congress and DC Public
Library, Georgetown Branch in Washington, D.C.
The subpoenas were related to USB storage drives
that had been stolen from the Petitioner while she
was doing research in their facilities. The
Petitioner/Plaintiff conferred with the Defendant
prior to filing the subpoenas with the Court and
they stated that they would not oppose the request.
The District Court denied the subpoenas’ request
and issued an Order stating that, “Except to the
extent both parties agree, discovery in this action is

14
hereby STAYED pending mediation.” Petitioner
believed that the information requested in the
subpoenas would provide evidence of thefts of case
documents and other privileged communication,
and expose unlawful retaliation.
On July 14, 2016 the last settlement conference was
held before the Magistrate Judge. A settlement was
not agreed to and mediation ended unsuccessfully
on July 31, 2016. The parties conferred on July 27,
2016 and the Petitioner filed a joint Status Report
on behalf of the parties.
On October 11, 2016 the Petitioner/Plaintiff sent a
response to the Defense’s Interrogatories to
Defense’s Counsel via email. Six documents were
attached to the email, however the Interrogatories
response document, although prepared, was not
attached. Plaintiff was unaware of this oversight.
On October 14, 2016 at 11:45 pm on 10/14/16,
Plaintiff attempted to send her Plaintiffs
Interrogatories/Questions to their Counsel via
email. Her cell phone malfunctioned, “powered off’
and would not “power on”. Although the phone’s
battery was at about 20 or 25 percent, the phone
would not work. Because the cell phone was her
only means of sending email and the Defendant
Counsel’s contact information was in the phone, she
was unable to email Defendant’s Counsel. The
Petitioner called 411 on a landline and obtained the
phone number for the Defendant Counsel’s office,
Constangy, Brooks, Smith & Prophete, in Fairfax,
Virginia. She left a voice mail message in the firm’s
general mailbox regarding the issue.

15

At 5:46 am on October 15, 2016, the Petitioner
successfully sent her Plaintiffs Interrogatories to
the Defendant via email with an explanation of
what had happened. Although Ms. Ogunsula has
since been counseled by pro bono lawyers that her
Interrogatories were deemed late because she had
not submitted them to the Defendant 30 days prior
to October 14, 2016 date, she was not aware of this
custom.
The Respondent said that they were probably going
to object to the Plaintiffs interrogatories because
they considered them late. Ms. Ogunsula told the
Respondent’s attorney that she had called his office
on the night of the deadline of Discovery and left a
message that her phone had malfunctioned and
that she did not have access to her contacts or email
addresses. The Respondent’s counsel said that they
would answer the questions and that they had 30
days to respond.
On December 5, 2016, the Petitioner/Plaintiff
returned to DC area to sit for a Deposition for the
Defendant. At the Deposition, the Defendant did
not deliver the response to Petitioner’s
Interrogatories, but again promised to send them to
the Petitioner soon. At this point the response was
more than 50 days late.
On December 13th, the Petitioner received an
unsigned, unauthenticated response to her
Plaintiffs Interrogatories via email from the
Respondent’s Counsel. On December 16th, she

16
received the transcript from the 12/5/16 Deposition
to review and make corrections.
On December 28, 2016, the Petitioner received
notice via Electronic Case Filing (ECF) of the
Defendant’s Motion for Summary Judgment and
the same day she was notified by Order of the Court
advising her to respond by January 18, 2017 to the
Defendant’s motion or risk entry of judgment.
The Petitioner filed a “MOTION TO EXTEND THE
TIME TO RESPOND TO THE DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT AND TO
COMPEL DISCOVERY’ on January 17, 2017. The
Motion was denied without prejudice on January
19, 2017.
In order to comply with the Court’s instructions
regarding Discovery Disputes, she completed a
detailed rebuttal report to the Defendant’s
Interrogatory Responses. She then contacted the
Defense Counsel and the Judge’s Chambers in
Order to schedule a conference/Hearing on the
matter. The Respondent/Defendant communicated
via email on January 25, 2017 that they were
opposed to a Discovery conference and opposed
Plaintiff s requested extension. Ms. Ogunsula then
emailed the Judge’s chambers on February 10, 2017
with her Discovery Disputes. She was instructed to
file something on the docket because the Defendant
opposed the Conference and did not participate in
the Report. On February 21, 2017 she filed what
she construed as a Motion To Compel Discovery.
The Court issued an Order for the Defendant to

17
respond. (See District Court Docket #52-54). On
May 11, 2017, the Court denied the
Petitioner/Plaintiff Motion For Discovery and
ordered Ms. Ogunsula to file a reply to the
Defendant’s Motion for Summary Judgment by
June 16, 2017.
On June 23, 2017, Ms. Ogunsula filed what she
construed as a “Motion 56D”. (See District Court
Docket #56 and 57) On July 10th, the Defendant
filed a Reply. The District Court ruled in favor of
the Defendant’s Summary Judgment Motion on
September 21, 2017.
On October 20, 2017, the Petitioner/Plaintiff filed a
timely appeal with the U.S. Court of Appeals for the
District of Columbia. On August 10, 2018, a Special
Panel of the U.S. Court of Appeals for the District of
Columbia affirmed the decision of the District
Court. The Petitioner filed a Petition for Rehearing
and Rehearing En Banc on September 18, 2018. A
Motion For Recusal was filed by the Petitioner on
September 24, 2018. On December 3, 2018, the
Appeals Court denied the Rehearing and Rehearing
En Banc and the Special Panel denied the Motion
For Recusal.

18
REASONS FOR GRANTING THE WRIT
I.

McDonnell Douglas prongs and
framework should be reconsidered

The EEOC issued guidance in 1997 that established
that employees of employment agencies and staffing
firms are considered employees and covered by Title
VII of Civil Rights Act of 1964 (42 U.S.C. 2000e-5)
including the amendments known as the Civil
Rights Act of 1991 (commonly referred to in whole
part as Title VII) and the Age Discrimination in
Employment Act, 29 U.S.C. § 621 et seq. (“ADEA”).
As it relates to Title VII, the EEOC provided
definitions of the terms “employee” and “employer”;
factors that indicate whether an employee is
covered under Title VII; and circumstances that
lead to the determination of whether an
employment agency/staffing firm is considered a
joint employer with their client. That guidance
stated the nature of the relationship is determined
by factors including:
• Who controls when, where and how the
worker performs its job;
• Who has the right to assign additional work
or projects; and
• Who sets the employee’s hours, etc.
Although the Supreme Court has not had an
occasion to address the standards that govern who
is an "employee" under Title VII and the ADEA,
etc., the EEOC said the rationale in [Nationwide

19
Mutual vs Darden] should apply.12 (Nationwide
Mutual Insurance Co. v. Darden, 503 U.S. 318, 324
(1992). (See also NLRB v. United Ins. Co. of
America, 390 U.S. 254, 258, 1968); Magnuson v.
Peak Technical Services, Inc., 808 F. Supp. 500, 508
(E.D. Va. 1992) 40 F.3d 1244 (4th Cir. 1994)) The
Commission stated that, “both staffing firms and
their clients share EEO responsibilities toward
these (temporary or contingent) workers”13
To the best of the Petitioner’s ability and research,
she has not found a case where the Supreme Court
addressed Title VII as it relates to temporary
employees or contingent workers, and hiring
discrimination. Most cases address the issue in the
context of a single employer situation. As it is
Congress’ intent to assure equality of employment
opportunities and to eliminate those discriminatory
practices and devices which have fostered racially
stratified job environments to the disadvantage of
minority citizens, the Petitioner believes that this
case presents an opportunity for the Supreme Court
to address this.
Notwithstanding current EEO laws, Congress’
intent, and the EEOC’s enforcement, African
Americans still suffer from an unemployment rate
that is disproportionate to their overall population
when compared with their white counterparts. And
i2Enforcement Guidance: Application of EEO Laws to
Contingent Workers Placed by Temporary Employment
Agencies and Other Staffing Firms”, EEOC NOTICE No.
915.002, Footnote No. 10, 12/03/97
13Ibid, page 3.

20
their unemployment rate is still higher when
compared to an equally qualified group of white
individuals.
With the technological shift that has taken place
since 1973 that affects how individuals apply for
and accept positions and work
assignments/arrangements, and the fact that
America continues to struggle with both overt and
subtle forms of discrimination, especially as it
relates to hiring African Americans and other
minorities, this case presents a clear opportunity
for the U.S. Supreme Court to re-address the
McDonnell Douglas’ prima facie proofs and
framework as it relates to temporary and
contingent workers and their employers.
The prima facie proofs should be updated to reflect
the context of today’s work force and an
environment that is largely ruled by technology, the
internet and social media. As discerning as the
Supreme Court was in deciding the McDonnell
Douglas vs Green case in 1973 that has provided an
enduring precedent and comprehensive framework
for over 45 years, it could not have anticipated the
tremendous growth that has occurred in the
temporary staffing industry and the characteristics,
both positive and negative, of this industry. The
Petitioner will argue that the McDonnell Douglas
proofs and framework should be reconsidered in
light of the nuances of temporary
employment/staffing firms that afford cost saving
benefits to the employers but also provide an
opportunity for increased, sometimes brazen

21
discrimination for their employees and company
clients.
A. Application For A Position/Work Assignment
There is no dispute that McDonnell Douglas’ prima
facie prongs in a hiring case are:
[Petitioner] belongs to a racial
(i)
minority;
She applied and was qualified for a job
(ii)
for which the employer was seeking
applicants;
(iii) Despite [her] qualifications, [s]he was
rejected; and
After [her] rejection, the position
(iv)
remained open and the employer
continued to seek applicants from
persons of complainant's
qualifications.!13]
(McDonnell Douglas Corp. v. Green, 411 U.S. 792,
U.S. Supreme Court, 1973)
Likewise, the ADEA framework, which is based on
the McDonnell case framework is:
(1) Petitioner is a member of the protected class
(i.e., over 40 years of age);
(2) She was qualified for the position for which
she applied;
(3) She was not hired; and
(4) She was disadvantaged in favor of a younger
person.” (District Court’s 9/21/17
Memorandum Opinion, citing Cuddy v.
Carmen, 694 F.2d 853, 856-57 (D.C. Cir.
1982)).

22

These proofs, as currently stated, reflect how
individuals applied for employment in 1973.
However, a lot has changed since then. Back then
most people presented themselves as well as their
resume at the employer’s company location to fill
out an application(s) for available positions.
Positions were physically posted on a board or in a
window, and/or advertised in the classified section
of a local newspaper. Job ads directed the
interested applicants to contact the employer by
phone or in person. Today, virtually no applications
are made in person and almost all are completed
online. Job postings appear on company websites
and job boards such as Career Builder, Indeed,
Dice, Linkedln, Glassdoor, Idealist, and Google,
etc.14 Some temporary agencies and staffing firms
send out emails, also known as email blasts, with
current opportunities and some employers even
post their positions on social media.
With respect to temporary employment agencies,
applicants may not and most commonly do not
apply for “a [single] job”. (See McDonnell Douglas
prima facie proofs, emphasis added) They apply for
types of positions and they apply to work at any of
the temporary agency’s clients that are accessible to
them given their transportation means and other
constraints, such as family responsibilities.

14Weiss, Sabrina Rojas, “The Best Job Search Sites To Use In
Your Obsessive Hunt For A New Gig”, Refinery29, 4/19/19,
http://www.refinerv29.com/en-us/iobs-search-websites

23
The Supreme Court added a footnote, Footnote 13,
at the end of their framework proofs in the
McDonnell Douglas case. It states:
[13] The facts necessarily will vary in
Title VII cases, and the specification
above of the prima facie proof required
from respondent is not necessarily
applicable in every respect to differing
factual situations.
Petitioner argues that what the Supreme Court
intended to do with Footnote 13 was to provide a
framework that could be adjusted for the different
factual situations of Title VII cases just like the
Petitioner’s case. A strict reading of the existing
prima facie proofs above could leave a loophole for
employment agencies to engage in discriminatory
practices between the period of application to the
agency and when and how they are selected for a
position(s). And this does happen. The plaintiffs in
Pruitt et al. vs. Personnel Staffing Group in
Chicago, IL alleged racial discrimination and
disparate treatment in the employment agency’s
hiring and selection of employees for work
assignments. The employers stated a preference for
and hired Hispanic applicants over equally
qualified African American applicants. (See Derell
Pruitt, et al. Plaintiffs, v. Personnel Staffing Group,
LLC d/b/a MVP, et al., Defendants. Case No. 16 C
5079, Docket #85 Memorandum of Opinion,
November 30, 2016.) The employer was accused of
discriminatory practices in how they referred
employees to their clients. In this case both the

24
employer and their clients were sued for hiring
discrimination.
The Petitioner applied for and was interviewed by
the Respondent, Staffing Now, for administrative
positions in September 2015. Staffing Now is an
employment agency “employer” that places
temporary and permanent employees with client
companies. They are responsible for paying their
employees and they are liable for Title VII and
ADEA violations. (See 42 U.S. Code § 2000e —
Definitions and also Ma.gnuson v. Peak Technical
Services, Inc., 808 F. Supp. 500, 508, E.D. Va. 1992)
At the end of the interview, the Petitioner
completed payroll and 19 documentation. She was
then told that she would be sent out for work
assignments. She sought and was qualified for
administrative positions at Staffing Now. She was
not told by the Respondents that they did not have
any work or job assignments available. In fact, she
was given the impression that as soon as she
delivered her resume in the MS Word format and
the additional references that were requested by
the Respondent, she would have completed the onboarding process and begin work assignments. The
Respondent had positions available and they
presently continue to offer administrative positions.
(See StaffingNow.com)
The Petitioner will argue that she did meet her
prima facie case. However, she does also contend
that the Respondent did not comply with her
interrogatory requests and this was a violation of

25
the FRCPs. This was also severely prejudicial to her
as a Plaintiff as will be discussed more below.
B. Practices Related to Recruiting/Hiring
Employees Have Changed
“A staffing firm is obligated, as an employer, to
make job assignments in a nondiscriminatory
manner. It also is obligated as an employment
agency to make job referrals in a nondiscriminatory
manner.”15 Unlike company human resources
departments and a lot of full-time permanent
staffing or recruiting firms, temporary employment
agencies or staffing firms do not advertise all of
their positions nor do they require their
employees to apply for every position that
they accept. Their employees rely on the
temporary agencies to call and make offers of work.
All the more reason why liberal discovery in a case
like this is essential.
Typically when temp agencies call an individual
about a specific short term temporary position, they
are making an offer of work. The temporary
employee either confirms her availability and
willingness to accept the offer or declines the offer.
So, these practices do not easily fit into prima facie
proofs #2, 3, and 4.
In this case, Petitioner did not apply for one specific
position or several positions. She applied to work
certain types of positions at the temporary agency’s
15EEOC NOTICE No. 915.002 (n 12), Discriminatory
Assignment Practices.

26
client locations. To require that the Petitioner
should have applied to a specific, single or multiple
positions is not consistent with the practices of the
temporary staffing industry. And as to the question
whether Staffing Now had administrative-type
vacancies, the Petitioner is led to believe that they
did have vacancies because the interviewer said
that they would start sending her out for
assignments.
The Respondent was asked to provide the
Petitioner/Plaintiff with their positions, hires, and
other relevant data during the relevant period in
Plaintiffs Interrogatory #21. The Respondent
objected and did not provide this basic discovery
information. This flies in the face of broad and
liberal discovery. The EEOC would have had
authority to request this information. Any
information relevant — in a discovery sense — to
an EEOC investigation is likewise relevant to the
private attorney-general [i.e., Petitioner], either in
[her] individual role or in [her] capacity as the
claimed representative of a class. (H. Kessler and
Co. v. EEOC, 5 Cir., 1973, 472 F.2d 1147 [1972] (En
Banc) quoting Burns v. Thiokol Chemical
Corporation, 483 F. 2d 300, 5th Circuit, 1973).
Although their practices regarding advertising
positions and selection differ somewhat from other
human resources organizations, they are
nonetheless prohibited from discrimination in
hiring and discriminatory practices. The [EEOC]
guidance makes clear that a staffing firm must hire

27
and make job assignments in a non-discriminatory
manner.16
Given Respondent’s comment about the Petitioner’s
age during the interview, which was characterized
as “harmless” by the Respondent, that together
with the Respondent’s action after the interview are
more than likely indicative of disparate treatment
of older and minority applicants.
Research studies presented statistical evidence that
one’s chances of getting a callback or interviewed is
significantly less if you are an African American
and Hispanic.17 In the study, applicants with “racetyped” names or names that are commonly thought
to be popular in or indicative of African American or
Hispanic ethnicity put the applicant at a
disadvantage for getting a callback or being invited
to an in-person interview.
In [another] research study conducted by the
National Bureau Of Economic Research in October
2015 and revised in November 2017, the data
specifically found that the “callback” rate for
administrative jobs was in fact 29% lower for
16Ibid, Executive Summary.
17The [Quillan et al.] meta analysis of callback rates from all
existing field experiments showed evidence of discrimination
against both blacks and Latino applicants. Since 1990 white
applicants received, on overage, 36% more call backs than
black applicants and 24% more call backs than Latino
applicants with identical resumes. The analysis [was] of 21
field experiments contrasting white and black Americans
based on 42,703 applications for 20,990 positions. See Lincoln
Quillan (N 4).

28
applicants in the 49-51 year old group as compared
to the rate for applicants who were 29-31. Further,
they also concluded in their research study that
there was a direct correlation between the
applicant’s age and their callback rate.18 The
Petitioner experienced this very phenomenon with
the Respondent. (See pages 6-8)
The Respondent stated in their limited response to
the Petitioner/Plaintiffs interrogatories regarding
whether the Petitioner was ever considered for any
positions with Staffing Now, Inc. that the
“Defendant did not have any positions for which
Ms. Ogansula qualified.”19 When asked to provide
detailed information about individuals who were
selected for positions during the 9 month period the
Petitioner applied and interviewed with the
Respondent, the Respondent refused and submitted
a boilerplate objection: “Defendant object to this
Interrogatory because it is vague, overly broad,
unduly burdensome, and seeks information that is
not relevant to Plaintiffs claims.”20 The FRCP No.
33 (b) (4) states that “grounds for objecting to an
interrogatory must be stated with specificity."

18Neumark, David, Ian Burn and Patrick Button, “IS IT
HARDER FOR OLDER WORKERS TO FIND JOBS? NEW
AND IMPROVED, EVIDENCE FROM A FIELD
EXPERIMENT”, NATIONAL BUREAU OF ECONOMIC
RESEARCH, October 2015, Revised November 2017
^PLAINTIFF’S REBUTTAL TO DEFENDANT’S
DISCOVERY RESPONSE, (Motion To Compel) Ogunsula vs
Staffing Now, Inc., Case No. l:15-cv-00625-TSC, U.S. District
Court for the District of Columbia, Docket # 52, page 4.
20Ibid.

29
Respondent’s reply to the Petitioner interrogatory
request was in direct conflict with the FRCPs.
Moreover, the Respondent’s response in this case
harkens back to the rampant discrimination that
took place in the housing industry where minority
applicants would try to buy homes in certain
neighborhoods or rent apartments at a complex,
and they were told that there were no vacancies.
However, when their white counterparts attempted
to buy a home in the same neighborhood or rent at
the same building, they were welcomed. (See
Trafficante vs Metropolitan Life Insurance Co. 409
U.S. 205, 1972)
In Trafficante, this Court said that “complainants
act not only on their behalf but also “as private
attorneys general in vindicating a policy that
Congress considered to be of the highest priority.” If
the U.S. Attorney General or EEOC has a right to
the “discovery” information in question, so does this
Petitioner/Plaintiff. The Respondent intentionally
withheld their response to Interrogatory #21
regarding persons who were selected for positions
(including the position and employees’ protected
class) to thwart the Petitioner ability to make a
prima facie case. And if there were positions
available for which the Petitioner was qualified,
this presents a material fact issue in this case.
Also, a comment during the interview followed up
by actions of the Respondent that contradicted their
statements regarding sending the Petitioner out on
assignments, most assuredly can provide a pretext

30
of discrimination. (Texas Department of
Community Affairs vs. Burdine, 450 U.S. S.Ct 248,
1981)
II.

A UNITED STATES COURT OF
APPEALS has so far departed from
the accepted and usual course of
judicial proceedings, or sanctioned
such a departure by a lower court, as
to call for an exercise of this Court’s
supervisory power.

The submission of the interrogatories on 10/15 was
explained in the statement of the case. However,
the Respondent/Defendant did state that they
would provide a response. If they had objected and
stated that they were not going to respond to the
interrogatories, the Petitioner would have contacted
the District Court Judge’s Chambers to arrange for
a discovery conference or filed a Motion To Compel
which she eventually did.
The Respondent submitted responses that were less
than forthcoming and contained a large amount of
boilerplate language. The Interrogatory Responses
were unauthenticated and the Petitioner was forced
to file a Motion To Compel after the Discovery
period had ended.
This Court has said that discovery is to be broadly
and liberally construed. (Hickman v. Taylor, 1947,
29 U.S. 495, 507) Generally, the rule regarding
discovery is that parties are entitled to “discover
information even when such evidence will be

31
inadmissible at trial, if the information sought
appears reasonably calculated to lead to the
discovery of admissible evidence.” Fed.R.Civ.P.
26(b)(1). (Planells v. Howard University et al., WL
30372, U.S. District Court, District of
Columbia, 1983)
In Title VII cases, the EEOC, on behalf of plaintiffs,
or plaintiffs in a private action are permitted a very
broad scope of discovery, (paraphrasing Rich v.
Martin Marietta Corp., 522 F.2d 333, 343, 10th Cir.
1975). “The expansive scope of discovery in these
cases is dictated by the fact that direct evidence of
discrimination is rarely obtainable and
consequently, plaintiffs often must rely on
circumstantial and statistical evidence of an
employer's discrimination.” (Planells v. Howard
University et al., WL 30372, U.S. District Court,
District of Columbia, 1983) (See also Hazelwood
School District v. U.S., 433 U.S. 299, 308, 1977)
It is well settled that the District Court has
discretion in setting and managing Discovery.
(Hussain v. Nicholson, 435 F.3d 359, 363, D.C. Cir.
2006, quoting Edmond v. U.S. Postal Serv. Gen.
Counsel, 949 F.2d 415, 425, D.C. Cir. 1991)
However, “the District Court’s discovery rulings,
like their other procedural determinations, are not
entirely sacrosanct. If they fail to adhere to the
liberal spirit of the Rules, [the Court] must reverse.
(See Wallin v. Fuller and Nationwide Mutual
Insurance Co., 5th Cir. 1973, 476 F.2d 1204 [1973]).
And this is especially true in Title VII cases where
courts have refused to allow procedural

32
technicalities to impede the full vindication of
guaranteed rights. (Sanchez v. Standard Brands,
Inc., 5th Cir. 1970, 431 F.2d 455, 461, quoting
Burns v. Thiokol Chemical Corporation, 483 F. 2d
300 - Court of Appeals, 5th Circuit, 1973) This
should be especially true when pro se litigants are
prosecuting Title VII cases. Liberal discovery is an
essential hallmark of the American justice system.
Anything less is unfair.
In a case that was one of the catalysts for the 1991
Civil Rights Acts, the Supreme Court stated that
“...liberal discovery rules give plaintiffs broad
access to employers' records. ...employers falling
within the scope of the Uniform Guidelines on
Employee Selection Procedures must maintain
records disclosing the impact of tests and selection
procedures on employment opportunities of persons
by identifiable race, sex, or ethnic group. (Wards
Cove Packing v. Atonio, S.Ct. 490 U.S. 642, 1989)
Key elements of this case has been superseded by
the aforementioned Civil Rights Act, but what has
not been superseded is its stance on liberal
discovery.
Staffing firms and their clients are subject to
the same record preservation requirements
as other employers that are covered by the
anti-discrimination statutes. They therefore
must preserve all personnel records that they
have made relating to job assignments or any
other aspect of a staffing firm worker's
employment for a period of one year from the
date of the making of the record or the

33
personnel action involved, whichever occurs
later. Personnel records relevant to a
discrimination charge or an action brought
by the EEOC or the U.S. Attorney General
must be preserved until final disposition of
the charge or action. 29 C.F.R. §§ 1602.14,
1627.3(b).21
In denying the Petitioner’s Motion To Compel
Discovery, the lower court abused its discretion and
the effects represented a manifest injustice to the
Petitioner. A motion to [a court’s] discretion is a
motion not to its inclination but to its judgment;
and its judgment is to be guided by sound legal
principles. (Kirtsaeng vs John Wiley E. Sons, Inc.,
136 S.Ct 1979, 2016, quoting United States vs.
Burr, 25 F.Cas. 30, 35)

III.

Request Change/Update to Federal Rules
of Civil Procedure Rule 26, 33 and 34

The FRCPs 26, 33, and 34 as well as all Rules
related to Discovery should be updated to reflect the
unstated customs of the Bar of Attorneys. Customs
that are well known to litigating attorneys and bar
members are not known to pro se litigants and
therefore put them at a disadvantage when
navigating the federal and local rules of the court.
Pro Se litigants are most likely to represent
themselves in employment litigation. The number
of “pro se litigants” has risen substantially in the

21“EEOC No. 915.002 (n 12) Footnote 30.

34
last decade, due in part to the economic
downturn...22
For example, a custom exists among attorneys to
deliver interrogatories or other discover-related
requests 30 days before the discovery deadline.
However, this custom is not written anywhere in
FRCPs 26, 33, or 34.
The FRCPs, and specifically Rule 26 or 33, do not
plainly state that discovery requests must be
submitted 30 days prior to the deadline for fact
discovery. It would be helpful for non-lawyers if this
custom was included in the Rules.
For pro se litigants and any non-lawyer having to
navigate the FRCPs, they can be daunting to both
understand and comply with in circumstances
where there is no prior experience in litigation.
Adding the local rules of the court to the mix only
compounds the confusion and maze a pro se litigant
faces when trying to prosecute a case. One usually
is not aware that they have not complied with the
rules until they are admonished by the Court or an
opposing party’s counsel.
Clearly stating the 30 day custom in plain language
would be helpful. Additionally, including this
information in notices commonly provided to pro se

22Lucas, Lauren Sudeall and Darcy Meals, “Every Year,
Millions Try to Navigate US Courts Without A Lawyer”, The
Conversation, 9//21/17, http://theconversation.com/everv-vearmillions-trv-to-navigate-us-courts-without-a-lawver-84159

35
litigants by the federal courts and during the
Scheduling Conference would also be helpful.

IV.

Judicial Recusal
The foundation of justice is good faith.
-Cicero

28 U.S. Code §455 (a) states: “Any justice, judge, or
magistrate judge of the United States shall
disqualify himself in any proceeding in which his
impartiality might be reasonably be questioned.”
The facts related to this issue is as follows. The
Petitioner was driving a rented sports utility
vehicle on August 30, 2017 on 95 North in Harford
County, Maryland and was pulled over by a
Maryland State Trooper in an unmarked car. She
was not speeding. The traffic stop was initiated by
the Maryland law enforcement officer without
probable cause or reasonable suspicion. Ms.
Ogunsula was en route to a traffic court hearing in
Highstown, New Jersey. After being detained for
approximately 20 minutes, the trooper informed her
that she was being arrested on an outstanding
warrant. He provided no details regarding the
warrant except a few accusatory comments related
to a stolen car. Ms. Ogunsula had no knowledge of
what the officer was referencing or the outstanding
warrant. She was held in Harford County
Detention Center for three days before being
released on bail. The warrant had been issued in
Arlington, Virginia and was based on false

36
information. In fact the allegations had no factual
basis. The Arlington, Virginia warrant was recalled
and the charges and case in Harford County,
Maryland was dropped in October 2017.
The Petitioner contacted and retained an attorney
in Baltimore, Maryland in the fall of 2017 to pursue
civil remedies against all parties including the
State of Maryland that initiated actions that led to
her false arrest and detention in Maryland.
On July 9, 2018, Ms. Ogunsula was notified by Per
Curiam Order via ECF from the U.S. Appeals Court
for the District of Columbia that a three Judge
panel consisting of Kavanaugh, Wilkins, and
Katsas would dispose of the present case without
argument. That day, it was announced that Judge
Kavanaugh was on the short list to be nominated to
the U.S. Supreme Court. Petitioner wrote a short
blog about Judge Kavanaugh and the other three
nominees. She later updated it to confirm the
Kavanaugh nomination after the President
announced on the evening of July 9. (It was later
learned on the date of the 8/10/18 Appeals’ decision
that Associate Justice Kavanaugh did not
participate in the decision and that the decision was
rendered by the aforementioned two-judge “Special
Panel”.)
It was a few weeks later that she “googled” the
other two judges in the matter and found out that
Judge Wilkins had been involved in a civil action
against the State of Maryland related to a traffic
stop by a Maryland State Trooper. Not sure of what

37
to do, she thought it best to notify the Court in case
there was a potential conflict of interest. She
drafted the brief Motion just to notify the Court
that she intended to be a plaintiff in a civil suit
related to a traffic stop and “false claims leading to
[her] arrest and detainment. She also stated that
the State of Maryland would be a party to the civil
suit. She did not research the law regarding judicial
recusals, but she did attempt to contact her
attorney in the traffic stop matter. She had been
unable to reach her for several days. The day that
she was finally able to speak with her attorney, it
was the day of the decision.
Ms. Ogunsula attempted to notify the Appeals
Court on or after August 7th. This was before its
August 10, 2018 decision. She brought a paper copy
of the Motion to the Appeals Court but was not
allowed to file it because she had electronic filing
privileges with the Court. Shortly after the Appeals
Court’s decision was announced, she decided to file
a Petition For Rehearing and Rehearing En Banc
which she did file. Still having not formally
informed the Court of the potential conflict, she
filed the original Motion with a modified date. She
was anticipating that the Court would request
additional information on this matter in order to
make a decision, however it did not and the Motion
was denied with the Petitions for Rehearing.
Standard of Review
The Supreme Court is being asked to provide a
“first instance” review of the denial of the U.S.

38
Appeals Court for the District of Columbia Circuit’s
Motion on the basis of Section 455 (a) listed above.
Firstly, the facts of Ms. Ogunsula’s encounter and
incident with Maryland State law enforcement
personnel are very similar to Judge Wilkins. She
was not aware of Judge Wilkins’ incident at the
time of her arrest or for almost a year thereafter.
However, she believes that his involvement in her
Appeals case raises an appearance of bias whether
or not any bias actually exists in reality.
If the two judge panel that included Judge Wilkins
had ruled in favor of the Petitioner/Appellant, the
Respondent/Appellee could have submitted a
Motion For Recusal on the basis of apparent bias. If
the Judge had ruled against the Petitioner, as the
panel did, inference can be made about the viability
or validity of the Petitioner’s civil complaint/case
against the State of Maryland. There is an
appearance of a lack of impartiality or that the
judge was more rigid in his view of the case to
compensate for an appearance that the public could
perceive a bias. Additionally because another judge
was not added to the panel to replace Justice
Kavanaugh, it only further increases the
appearance of a lack of impartiality in the judicial
process regarding the panel’s decision.
Scienter is not an element of a violation of §455 (a).
The judge’s lack of knowledge of a disqualifying
circumstance may bear on the question of remedy
but it does not eliminate the risk that “his
impartiality might reasonably be questioned” by
other persons. (Liljeberg vs. Health Services

39
Acquisition Corp., 486 U.S. 847, 1988) Prior
knowledge of the disqualifying information or
actual facts is not required under §455 (a) in order
for the judge to disqualify himself before or after a
decision. The Petitioner formally advised the Court
of the potential conflict of interests via a filed
Motion about 45 days after the Court’s initial
Appeals’ decision and well before the decision on
her Petition for Rehearing. The Petitioner would
have provided more detail to the Court in a Hearing
or Memorandum if she had been asked.
The Supreme Court further went on to say, “that in
determining whether a judgment should be vacated
for a violation of §455 (a), it is appropriate to
consider the risk of injustice to the parties in this
particular case, the risk that the denial of relief will
produce injustice in other cases, and the risk of
undermining the public’s confidence in the judicial
process.” (Liljeberg, at 864) “Neither actual
partiality, nor knowledge of the disqualifying
circumstances on the part of the judge during the
affected proceeding, are prerequisites to the
disqualification under this section. The recusal
applies equally before, during, and after a judicial
proceeding whenever disqualifying circumstances
become known to the judge.” (US vs Kelly, 888 F2.d
732, U.S. Court of Appeals, 11th Circuit, 1989)
Petitioner requests the Supreme Court to vacate
the U.S. Appeals Court’s denial of the Motion For
Recusal and remand for further proceedings.

40
CONCLUSION
For the foregoing reasons, the Petitioner is
requesting the U.S. Supreme Court grant this
Petition For Writ of Certiorari.

Dated:

June 24, 2019

Respectfully submitted,

nieo/tfjj. @gtM<Lula/
Veronica W. Ogunsula, Pro Se

